    Department of Health and Human Services 

             OFFICE 6F                     .
~      INSPECTOR   .GENERAL




        HOSPITAL CLOSURE: 1990




                     Richard P. Kusserow
                    INSPECTOR GENERAL
                      OFFICE OF INSPECTOR GENERAL
The mission of the Office of Inspector General (OIG), as mandated by Public Law 95452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program, and management problems, and recommends courses to
correct them.

                            OFFICE OF AUDIT SERVICES
The OIG’s Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS. programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HIIS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                            OFFIa     OF -TIGATIONS
The OIG’s Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient ahuse in the Medicaid program.

              OFFICE OF EVALUATION’AND                      INSPECI’IONS
The OIG’s Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Repartment,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

OEI’s Atlanta Regional Office staff prepared this report under the direction of Jesse J.
Plowers, Regional Inspector General and Christopher Koehler, Deputy Regional Inspector
General. Principal OEI staff included:

Atlanta Region                                              Headquarters

Ron Kalil, Project Leader                                   Cathaleen Ahem
Maureen Wilce                                               Linda Moscoe
Paula Bowker
                 EXECUTIVE                        SUMMARY

PURPOSE

To descriie the extent, nature, reasons for, and impact of hospital closure in 1990.

BACKGROUND

The closure of hospitals in recent years has generated increasing public and congressional
concern. According to a number of recent studies, more hospitals are expected to close
in coming years. Numerous questions have been raised about the reasons for and the
impact of hospital closure, as well as the implications for public policy.

At the request of.the Secretary of the Department of Health and Human Services,the
Office of Inspector General (OIG) prepared a report in May 1989 describing the
nationwide phenomenon of hospital closure in 1987. The Secretary then asked the
Inspector General to continue analysis of hospital closure to determine trends and effects
of the phenomenon. We issued a report on 1988 hospital closures in April 1990 and a
report on 1989 closures in January 1991.

The findings from the OIG 1987, 1988 and 1989 studies were similar. The hospitals that
closed were small and had low occupancy rates. When the hospitals closed, few patients
were affected. Most could get medical care nearby.

FINDINGS            ’

Our inspection of hospital closures in 1990 produced findings similar to those previously
reported for 1987, 1988, and 1989.

b	     Fifty-six general, acute care hospitals closed -- 20 fewer than in 1989. Twenty-
       eight of the closed hospitals were rural; 28 were urban. They were located in 26
       States. Seven new hospitals opened, and 2 hospitals that closed prior to 1990
       reopened in 1990.

b	     Closed hospitals in both rural and urban areas were much smaller than the
       national averages. Rural hospitals that closed were less than half the size of the
       average rural hospital nationwide (38.8 beds vs. 82.5 beds). Urban hospitals that
       closed were much smaller than the average urban hospital nationwide (93.1 beds
       vs. 245.1 beds).

b	     Occupancy rates for closed rural and urban hospitals were much lower than the
       national averages. Rural hospitals that closed had an average occupancy rate of
       23.5 percent compared to an average 38.6 percent for all rural hospitals



                                              i
     nationally. Urban hospitals that closed had an average occupancy rate of 30.5
     percent compared to an average 56.6 percent for all urban hospitals nationally.

b	   The average Medicare utilization among hospitals that closed was slightly lower in
     rural areas than the national average for rural hospitals (48.4 percent vs. 51.2
     percent). In urban areas, the average Medicare utilization among hospitals that
     closed was higher than the national average for urban hospitals (50.7 percent vs.
     44.8 percent).

b	   The average Medicaid utilization among hospitals that closed was slightly higher in
     rural areas than the national average for rural hospitals (12.3 percent vs. 10.6
     percent). Minimal differences existed in the average Medicaid utilization among
     urban hospitals that closed and urban hospitals nationally.

b	   The reasons for hospitals closing in 1990 were similar to those,reported for
     hospitals closing in 1987, 1988 and 1989. Hospitals closed because of the
     interrelated factors of declining occupancy, lagging revenues and rising costs.
     Hospital viability depends on the stability of all three factors. The weakening of
     one may begin a chain reaction eventually leading to hospital closure.

b	   Although residents in a few communities had to travel greater distances for
     hospital care, emergency and inpatient medical care is available within 20 miles
     for most communities where hospitals closed.

b	   At the time of our review, 31 of the 56 closed hospital facilities (55 percent) were
     being used, primarily for health-related services. Also plans were being made for
     using 8 of the remaining 25 vacant hospitals for health-related services.




                                             ii
                             TABLE                   OF CONTENTS

EXECUTIVESUMMARY                         ............................................ i


LNTRODUCTION...................................................                                                      I


FINDINGS

         Extent and Nature of Hospital Closure . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3 


                   How Many Closed? ........................................                                         3


                   Where Were They? ..............                      T ..........................                 3


                   How Many Opened? . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4 


                   What Were the Closed Hospitals Like? . . . . . . . . . . . . . . . . . . . . . . . . . 4 


                   Why Did They Close? . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7 


         Impact of Hospital Closure . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7 


                   How Many Patients Were Affected? . . . . . . . . . . . . . . . . . . . . . . . . . . . 7 


                   Are Inpatient Care and Emergency 

                    Setices Available? . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8 


                   What Is the Building Used For Now? . . . . . . . . . . . , . . . . . . . . . . . . . 10 


         Summary ....................................................                                              11 


ENDNOTES ......................................................                                                    12 


APPENDIXES

         Appendix A: Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-l

         Appendix B: Number of Hospital Closures by State . . . . . . . . . . . . . . . . . . . B-l

         Appendix C: Number of Hospital Closures by
                      Name and Location . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . C-l
                           INTRODUCTION

PURPO!SE

To describe the extent, nature, reasons for, and impact of hospital closure in 1990.

This report is a follow-up to the recent Office of Inspector General (OIG) studies
entitled “Hospital Closure: 1987” (OAI-04-89-00740), issued in May 1989, “Hospital
Closure: 1988” (OEI-04-89-01810), issued in April 1990 and “Hospital Closure: 1989”
(OEI-04-90-02440), issued in January 1991.

This study was requested by the Secretary of the Department of Health and Human
Semices.

BACKGROUND

In the past several years, the closure of general, acute care hospitals has generated
increasing public and congressional concern. According to a number of recent studies,
more hospitals are expected to close in coming years. Numerous questions have been
raised about the reasons for and the impact of hospital closure, as well as implications
for public policy.

At the request of the Secretary of the Department of Health and Human Services
(HI%), the OIG released an inspection in May 1989 describing the extent, nature and
impact of hospital closure in 1987 in the United States. That study showed that 69
hospitals closed in 1987. The results were presented to the Secretary, the Assistant
Secretaries of HI-IS, and staff of the Health Care Financing Administration (HCFA) and
the Public Health Service (PHS). The Inspector General testified before the U.S. House
Ways and Means Subcommittee on Health regarding the study findings. Many of those
informed of the study of 1987 hospital closures encouraged the Inspector General to
continue analysis of the phenomenon to detect differences in the rate of hospital closure
and in the characteristics and circumstancesof hospitals that close.

Similar inspections of 1988 hospital closures and 1989 hospital closures showed that 88
and 76 hospitals closed respectively.

The findings from the 1987, 1988 and 1989 studies were similar. The hospitals that
closed were small and had low occupancy rates. When the hospitals closed, few patients
were affected. Most could get medical care nearby.




                                             1

SCOPE

We examined hospitals that closed in calendar year 1990.

For purposes of this study, the following definitions were used.

Hospital: A facility that provides general, short-term, acute medical and surgical
inpatient services.

Closed Hospital: One that stopped providing general, short-term, acute inpatient
servicesin 1990. If a hospital merged with or was sold to another hospital and the
physical plant closed’for inpatient acute care, it was considered a closure. If a hospital
both closed and reopened in 1990, it was not considered a closure. If a hospital closed in
1989, reopened in 1990, and closed again in 1990, it was counted as a closure for 1989
but not again in 1990.

METHODS

To determine the extent and nature of hospital closure, we obtained information from
HCFA data bases. To determine reasons for and impact of hospital closure, we
interviewed State hospital associations,State licensing and certification agencies,State
health planning agencies,officials associatedwith closed and nearby hospitals, and local
public officials.

Appendix A describes
                   . information collection methods in further detail.




                                             2

                                   FINDINGS

The Inspector General’s study of hospitals closed in 1990 showed that:

ä	     Fifty-six general, acute care hospitals closed in 1990. Twenty fewer hospitals
       closed in 1990 than in the previous year.

ä      Most hospitals that closed were small and had low occupancy rates.

ä      When a hospital closed, few patients were affected.

l      Although residents of a few communities had to travel greater distances, most had
       emergency and inpatient medical care available within 20 miles of the closed
       hospital.


EXTENT    AND NATURE        OF HOSPITAL      CLOSURE

How Many Clad?

In 1990, there were more than 6,800 hospitals in the United States. Of those, 5,466 were
general, short-term, acute care hospitals entered on HCFA’s data base as participating in
the Medicare program. Fifty-six (56) hospitals closed in 1990 -- 1 percent of all hospitals
nationally. Twenty fewer hospitals closed in 1990 than in the previous year.



                   II   HOSPlTALS IN THE U.S.:
                        CLOSEDIN1990:
                                                        5,466
                                                          56 (1.0%)    H


When they closed, the general, acute care inpatient bed supply was reduced by 3,694
beds, or 0.4 percent.
                                                  .
WhereWmW?

The closed hospitals were located in 26 States. The greatest number of closures was in
Texas (lo), followed by California (7), Massachusetts(4), and.Louisiana (4). These’4
States represented 45 percent of the closures. Thirteen States had one closure each.
Appendix B lists the 1990 closures by State.




                                             3

One percent of all rural hospitals nationally closed in 1990. Similarly, 1 percent all urban
hospitals nationally closed in 1990.

                                               RURAL                URBAN
           HOSPITALS IN THE U.S.:              5667                 5799
           CLOSEDIN1990:                          28 (1.0%)           28 (1.0%)


How M&y    Opened?

While 56 hospitals closed in 1990, 7 new, general, acute care hospitals opened, adding
700 beds to the national supply of beds.

In addition to the new openings during 1990, 2 hospitals that closed prior to 1990
reopened in 1990, adding another 61 beds.

what Wen the Closed Hqitalr      Like?

a: 	 Hospitals that closed in 1990were small. More than three-quarters had fewer than
100 beds.


                              SIZE OF CLOSED HOSPITALS




Closed hospitals in both rural and urban areas were much smaller than the national
averages. Rural hospitals that closed were less than half the size of the average rural
hospital nationwide (38.8 beds vs. 82.5 beds). Urban hospit& that closed were even
smaller than the average urban hospital nationwide (93.1 beds vs. 245.1 beds).
                                              .




                                             4

                                          HOSPITALS                      THAT            CLOSED
                                                        WERE              SMALL
                                   4 or Beda
                    300        --

                                                                                       245.1
                                                                                  /                 I
                    250        -


                    200        -


                    150        -


                    100        -


                     so -


                          O­
                                     RURAL      HbSPlTALS                     URBAN         HOSPITALS


                                     m     Natlonal      Avg         m        Closed        Hospital         Avg




OccuDan~: Occupancy rates for closed rural and urban hospitals were much lower than
the national average.’

                                   GCCUPANCY                    RATES                 WERE               LOW
                    70%-

                                                                                  S0.6X
                    60%-                                                      /             n


                    so%­




                                     RURAL     l-&iP    ITALS             URBAN        ti.SP        ITALS


                                      m      Natlonal   Ava      a        CIOBI        l-los~ltal       AW



                                                                          .




                                                                5

                                                                                               .



Medicare Utilization:   In rural areas, the average Medicare utilization among hospitals
that closed was slightly lower than the rural national average (48.4 percent vs. 51.2
percent). In urban areas, the average MediCare utilization among hospitals that closed
was higher than the urban national average (50.7 percent vs. 44.8 percent).2

                                          MEDICARE               UTILIZATION


                          50%     -


                          40%-



                          30%     -


                          20%     -


                          10%     -


                            “R

                                      RURAL    HbSPITALS           URBAN    HOSPITALS


                                      -    Natlonml   Avg    m     Cloord   lioopltal    Awl




Medicaid Utilization:   In rural areas, the average Medicaid utilization among hospitals
that closed was slightly higher than the rural national average (12.3 percent vs. 10.6
percent). Minimal differences existed in the average Medicaid utilization among urban
hospitals that closed and all urban hospitals nationally?

                                          MEDICAID               UTILIZATION
                          14x


                          12%


                          10%
                                                                                                   .
                             BX


                             8%


                             4x



                             2%


                             0%
                                      RURAL    IIOSPITALS          URlAN     nbsPlrALs




                                                            6

?VhyDidl%eyChe?

As in our previous hospital closuie studies, the many health care professionals
interviewed for 1990 closures reported no single reason for hospital closure. Hospitals
close because of the interrelated factors of declining occupancy, lagging revenues and
rising costs. Hospital viability was said to depend on the stability of all three factors.
The weakening of one may begin a chain reaction eventually leading to hospital closure.




                  Rising
                  costs


                             L	              declining
                                             Revenues


IMPACI’   OF HOSPlTAL       CLOSURJZ

In communities where hospitals closed in 1990,we assessedthe:

ä      number of patients affected by closure of hospitals;

l      availability of inpatient care and emergency medical services;and

l      current use of the closed hospital facility.

How Marry Parierzrs, Were Affix&d?

Few patients were affected by hospital closure. For rural hospitals that closed in 1990,
the average daily censusin the year prior to closure was nine patients. The urban
hospitals had an average daily censusof 28 patients.
                                                                                    .




                                               7

                           WHEN HOSPITALS CLO!ED,
                      HOW MANY PATIEN?s WERE AFFECYJYED?
                                                    Rural Hospitals     Urban Hospitals
    Average Number of Beds                                 38.8                93.1
    Average Occupancy Rate                                x 23.5%            x 30.5%
    Average Patient Census                                  9.1                28.4
                                                                                            i
We analyzed Medicare utilization data to determine the number of elderly patients
affected by hospital closure in 1990. In rural hospitals that closed, four Medicare
patients were in the hospital on an average day in the year prior to closure. In the urban
hospitals that closed, there were 14 Medicare patients on an average day.




    Average Patient Census                                  9.1                28.4
    Average Medicare Utilization Rate                     x 48.4%            x 50.7%


                      *
Are Inpatient   Care and Emeqpcy    Services Available?

We assessedavailability of inpatient and emergency medical care in miles from closed
-hospitalsto the nearest inpatient and emergency facilities.

Inpatient Care: In most communities where a hospital closed in 1990, inpatient hospital
care was available nearby.

Rural: 	        Residents in 18 of the 28 rural communities where.a hospital closed could
                get inpatient care within 20 miles of the closed hospital.

                Residents of 3 rural communities had to travel more than 30 miles for
                inpatient care.

Urban: 	        In all but 2 of the 28 urban communities where a hospital closed in 1990,
                inpatient care was available within 10 miles of the closed hospital.




                                               8

                  NEAREST INPATIENT CARE TO CLOSED HOSPITALS
                                                              NUMBER OF CLOSED
                                                                  HOSPITALS
           DISTANCE                                          Rural              Urban
           Within 10 miles                                  9 (32%)          26 (93%)
           11-20 Miles                                      9 (32%)             2 (7%)
           21-30 Miles                                      7 (25%)             0 (0%)
           More than 30 Miles                               3 (11%)             0 (0%)
                                 Totals                    28 (100%)         28 (100%)


    EmerPencv Services: When a hospital closed, the community lost not only inpatient beds,
    but also emergency services.

    Rural: 	      In all 28 communities where rural hospitals closed, emergency care facilities
                  were available within 30 miles of closed hospitals.

                  In all but 4 of the 28 rural communities where hospitals closed, emergency
                  care facilities were available within 20 miles of the closed hospital. In those
                  four communities,
                         I            ambulance servicesand physician serviceswere available.


          NEAREST EMERGENCY SERVICES TO CLOSED RURAL HOSPITALS
                                                               NUMBER OF CLOSED
        DISTANCE                                                   HOSPITALS   .
                             a
        Same Town                                                           8
        Within 10 miles                                                     6
         1l-20 miles                                                       10
        21-30 miles                                                         4
        More than 30 miles                                                  0
                              Total                                        28


.




                                                 9

Urban: 	       In all but 4 urban communities where a hospital closed, emergency care
               facilities were less than 5 miles from the closed hospital. In 3 of those 4
               communities, emergency care facilities were within 10 miles from the closed
               hospital. Residents of the fourth community, Buna, Texas, must travel 15
               miles for emergency care. That community has physician servicesand
               ambulance servicesavailable.

What I;r the Building   Used For Now?

At the time of our review, 31 of the 56 closed hospital buildings (55 percent) were being
used, primarily for health-related services. For example:

b	     McCone County Hospital in Circle, Montana was converted to a Medical
       Assistance Facility. It provides 24-hour emergency services,outpatient care and
       up to 4 days of inpatient care.

       Holden Hospital in Holden, Massachusettswas converted to an urgent care
       center.

b	     Sardis Community Hospital in Sardis, Mississippi and Iola Hospital in Iola,
       Wisconsin became nursing homes,

b	     Westland Medical Center in Westland, Michigan offers. substance abuse and
       psychiatric servicesin the former hospital building.

The following chart illustrates the use of all 56 .hospital facilities after closure in 1990.


                               USE OF CLOSED HOSPITALS
                  Use of Building                        Number of Former Hospitals*
                                                          Rural                  Urban
     Specialty Treatment Facility
     (e.g. chemical dependency)
     Long Term Care Facility
II   Outpatient Services/Clinic                                                     7
II   Offices
II   Social Services




                                               10 

Plans were being made for using 8 of the remaining 25 vacant hospitals for health-related
services. For example, Modesto City Hospital in Modesto, California will be converted
to a Rehabilitation hospital. Plans were being made for two of the closed facilities to
reopen as acute care hospitals.




Fifty-six hospitals closed in 1990 - 20 fewer than in 1989. Their characteristics were very
similar to hospitals that closed in 1987, 1988 and 1989. Most hospitals that closed in
1990 were small and had low occupancy. When a hospital closed, few patients were
affected. Although residents of a few communities had to travel greater distances for
hospital care, most had emergency and inpatient medical care available within 20 miles of
the closed hospital.




                                            11 

                                       ENDNOTES 


1. 	   Hospital occupancy rate is defined as the actual’ number of patient days divided by
       the total bed days available. National occupancy rate is defined as the sum of all
       hospitals’ occupancy rates, divided by the number of hospitals.

2. 	   Average Medicare utilization of closed urban and rural hospitals is defined as the
       percent of Medicare patient days compared to the total patient days for each
       hospital, summed and divided by the number of hospitals. National average
       Medicare utilization is the percent of Medicare utilization of each hospital,
       summed and divided by the total number of hospitals.

3.     Medicaid utilization is calculated in the same way as Medicare utilization.




                     .




                                             12 

                                APPENDIX                A


METHODOLOGY

Extent and N-e      of Hosphl   Chnue

To determine how many hospitals closed in 1990,we contacted all 50 State licensing and
certification agencies. We also contacted State hospital associationsand State health
planning agencies. When a closed hospital met the study’s definition or when there were
questions, we contacted officials associatedwith the closed hospitals and officials
associatedwith hospitals nearest to the closed hospital.

To determine the number of hospitals in the United States, we used the Hospital Cost
Report Information System (HCRIS) maintained by the Health Care Financing
Administration (HCFA). We included only the general, short-term, acute care hospitals
under Medicare’s Prospective Payment System (PPS) in the universe. There were 5,466
hospitals listed on HCRIS as short-term, acute care, general hospitals for the sixth year
of PPS (PPS 6).

To analyze characteristics of closed hospitals, we used HCFA’s HCRIS data: We used
the latest pre-closure cost reports. For example, if a hospital closed in May 1990 and its
accounting year was on a January-December cycle, we used the provider’s January 1,
1989 to December 31, 1989 report.
                     .
We contacted officials of the following organizations to determine the reasons for 1990
hospital closure:

b      State hospital associations

b      State health planning agencies

b      State certification and licensing agencies

b      Closed hospitals

b      Nearest hospitals to closed hospitals

Impact of Hmpikzl   Clbswe

We limited our “impact” analysis to distance from a closed hospital to the nearest still-
operating hospitals and to emergency services. We obtained data for our analysis from
the following sources:
                                                           .



                                            A -1 

b   Former hospital administrators, board members, and/or staff of closed hospitals 


b   Hospital administrators and/or staff at the nearest hospitals 


b   Local police and health officials 


b   Local government officials 


b   State health planning agencies 


b   State certification and licensing agencies 


ä   State hospital associations 





                                          A -2 

                            APPENDIX                B

              State    II   Total Closures I   Rural Closures   1 Urban Closures II



                                                                                 II 

II   Massachusetts                                                               II 

II   Arkansas                                                                    II 

II                               2
II   Florida                                                                     II
II~~
   Illinois                                                                      II
II Michigan                      2                                               II
11 New Y&k                       2                                      2        II
II   Oklahoma                    2                                               II
II   Washington                  2                                               II
II   Alabama                     1



     Mississippi 

     Montana 

     New Hampshire 

     New Mexico 

     Nevada 

     Ohio 

     Oregon 

     Vermont 

     Wisconsin 

     West Virginia 

     26 States 


                                       B-l
                                        APPENDIX             C
                     1990 HO!SPITAL CLOSURES BY NAME AND LOCATION
                                                                         Rural/
Hospital Name                                  City              State   Urban
Clebume Community Hospital and
    Nursing Home                              Heflin                     rural
Buffalo Island Hospital                       Manila                     rural
Dermott-Chicot Memorial Hospital              Dermott                    rural
Valley View Community Hospital                Youngstown         AZ      urban
Ranch0 Encino Hospital                        Encino             CA      urban
Community Hospital of Salinas                 Salinas            CA      urban
Mendocino Community Hospital                  Ukiah              CA      rural
Modesto City Hospital                         Modesto            CA      rural
Fowler Community Hospital                     Fbwler             CA      urban
AM1 Community Hospital
    of Santa Cruz                             Santa Cruz         CA      urban
Marina Hills Hospital                         Los Angeles        CA      urban
Washington County Public Hospital             Akron              co      rural
La Plata Community Hospital                   Durango            co      rural
Centro Asturiano Hospital                     Tampa              FL      urban
North Miami Medical Center          ’         Miami              FL      urban
Physiciansand Surgeons Hospital               Atlanta            GA      urban
Atlanta Hospital .                            Atlanta            GA      urban
Community Memorial Hospital                   Postville          IA      rural
Central Community Hospital                    Clifton            IL      urban
Douglas County Jarman
    Memorial Hospital                         Tuscola                    rural
Rayne-Branch Hospital                         Rayne                      rural
E.S. Pike Memorial Hospital                   Kentwood                   rural
St. Luke General Hospital                     Arnaudville                rural
Plaquemines Parish General Hospital           Port Sulpher               rural
Holden Hospital                               Holden                     urban
Hunt Hospital                                 Danvers                    urban
MassachusettsOsteopathic Hospital
    and Medical Center                        Boston                     urban
St. Lukes Hospital of Middleborough           Middleboro                 urban
Westland Medical Center                       Westland           MI      urban
Northwest General Hospital                    Detroit            MI      urban




                                             C-l
                 1990 HOSPITAL CLOSURES BY NAME AND LOCATION (cent)
                                                                         Rural/
Hospital Name                              City              State       Urban
Sardis Community Hospital and
    Nursing Home                          Sardis            MS           rural
McCone County Hospital                    Circle                         rural
Newport Hospital                          Newport                        rural
Valencia Presbyterian Hospital            Belen                          rural
Incline Village Community Hospital        Incline Village                urban
Tioga Community Hospital                  Waverly                        urban
Adirondack Regional Hospital              Corinth           NY           urban
St. John Hospital                         Cleveland         OH           urban
Hominy City Hospital                      Hominy            OK           urban
Doctors General Hospital                  Oklahoma City     OK           urban
St. Helens Hospital and
    Health Center                         St. Helens        OR           rural
Hico Community Hospital                   Hico              TX           rural
Corpus Christi Osteopathic Hospital       Corpus Christi    TX           urban
Charles R. Drew Medical Center            Houston           TX           urban
E.L. Graham Memorial Hospital             Cisco             TX           rural
Ranger General Hospital                   Ranger            TX.      .   rural
Burleson Memorial Hospital                Caldwell          TX           rural
Harris Methodist - Dublin                 Dublin            TX           rural
David Granberry Memorial Hospital         Naples            TX           rural
Buna Medical Center Hospital,             Buna              TX           urban
Hubbard Hospital                          Hubbard           TX           rural
Rockingham Memorial Hospital              Bellows Falls     VT           rural
West Seattle Community Hospital       -   Seattle           WA           urban
Saint Cabrini Hospital of Seattle         Seattle           WA           urban
Iola Hospital                             Iola              WI           rural
Wyoming General Hospital                  Mullens                        rural




                                          c-2
